                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




         An allegation was received that several of the figures in the subject's1NSF proposal2were
         duplicates of figures (showcasing instrument capabilities) that appeared in a predating
         publication3that was not cited in the proposal. Inquiry showed that the publication was not the
         source for the figures, but the authors of that publication were. Specifically one of the authors of
         the publication had earlier provided the figures to a colleague of the subject4for use in classes,
         and these figures were also used in proposals that sought to obtain the same instrument. The
         subject states in a response letter to us that he believed that he could use these figures for the
         proposal, and admits they should have been referenced. The subject's proposal does not
         explicitly claim the figures as his own work, provides them as evidence of instrument
         capabilities, and provides another reference to the figure's authors to cite their work. A reminder
         to the subject about the need for proper citation should be sufficient to resolve the issue.

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
